No. 20-1541

 

 

In THE
Supreme Court of the United States

PIVOTAL SOFTWARE, INC., ET AL., Petitioners,

v

ZHUNG TRAN, ET AL., Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEAL FOR THE STATE OF
CALIFORNIA, FIRST APPELLATE DISTRICT

AMICUS CURIAE BRIEF OF THE CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA AND THE SECURITIES INDUSTRY AND
FINANCIAL MARKETS ASSOCIATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,218 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 7, 2021.

Colin Casey Hogan.
Wilson-Epes Printing Co., Inc.
